                                  INSPECTION




 RECORDS MANAGEMENT AT SELECTED
 BUREAU OF INDIAN AFFAIRS’ AGENCY
 OFFICES




Report No.: CR-IS-BIA-0001-2014     January 2014
               OFFICE OF
               INSPECTOR GENERAL
               U.S.DEPARTMENT OF THE INTERIOR


                                                                                     JAN 3 1 2014
Memorandum

To:            Michael S. Black
               Director, Bureau of Indian Affairs

From:          JeffCarlson    d~~
               Director, E~s Unit

Subject:       Inspection Report - Records Management at Selected Bureau of Indian Affairs'
               Agency Offices
               Report No. CR-IS-BIA-0001 -2014

        The Office oflnspector General is currently evaluating the U.S. Department of the
Interior's application for permit to drill (APD) process for oil and gas wells. As part of the
evaluation, we conducted site visits at three Bureau of Indian Affairs' (BIA) agencies to assess
BIA's role in the APD process. At two of the three agencies we visited, we found deficiencies in
records management practices for oil and gas documents and files. This inspection report
contains the results of those findings. The results of our evaluation of the APD process will be
reported separately.

        From April through July 2013, we visited the following BIA offices:

           •   Southern Ute Agency, Ignacio, CO;
           •   Fort Berthold Agency, New Town, ND; and
           •   Uintah & Ouray Agency, Fort Duchesne, UT.

       The three agencies were selected because of their locations, intensive oil and gas
development, and large numbers of APD submissions.

Background

        Royalty payments for oil and gas produced from Indian lands are held in trust, invested,
and disbursed at the direction of the applicable tribe or individual mineral owner. To ensure that
royalties are correctly paid, it is essential that BIA agency offices maintain an accurate system of
property records showing the location and owner of each oil and gas lease, individual well data,
and rights-of-way.

        The "Indian Affairs Records Management Manual" (IARMM) stipulates the
requirements for property records systems. The Office of Trust Review and Audit (OTRA) under
the Office ofthe Special Trustee for American Indians (OST) provides periodic, independent
reviews of BIA' s offices to ensure the Secretary's trust responsibilities are carried out.

                         O ffice of Audits, Inspections, and Evaluations I Lakewood, CO
Findings

Southern Ute Agency
         The condition of the Southern Ute Agency’s land records was the subject of a November
2009 report issued by the Superintendent for the Uintah & Ouray Agency. The report stated that
information concerning leases, oil wells, and correspondence were kept in the same file making
it large and unmanageable, especially when researching specific information. Further, each file
contained much of the same information, but not in any order. The report cited other deficiencies
including—

   •   real estate and general records inconsistently filed;
   •   new property records incorrectly recorded;
   •   uncontrolled access to property records;
   •   incomplete and not current rights-of-way files;
   •   unrecorded oil well surface structures in BIA’s Trust Asset and Accounting Management
       System; and
   •   incomplete well files or not uniformly filed.

        When we inquired about the report, the BIA official who wrote the report stated that the
Southern Ute Agency had not corrected many of these issues. During our site visit to the
Southern Ute Tribe, we interviewed tribal officials regarding the APD process. Officials stated
that the Agency’s oil and gas lease files were not in good condition adding additional time to
BIA’s surface review. They also stated that the Agency was understaffed. The officials also felt
that their property records were better than BIA’s. Our inspection of the Southern Ute Agency
was performed during the survey phase of our APD evaluation and did not involve the review of
APD files in the same manner that Fort Berthold was reviewed. Nevertheless, our interview with
the Southern Ute Agency and tribal officials helped identify records management weaknesses.

Fort Berthold Agency
        We observed that the Fort Berthold Agency used three rooms to file official records. One
room was an office staffed by the realty specialist, the second was an unstaffed records room,
and the third was a vault where OST’s records were kept. The vault appeared neat and orderly.
The two other rooms, however, were in disarray with file boxes stacked haphazardly. Further, we
observed several boxes of documents without identification labels, unlocked file cabinets with
loose files, and unrestricted access to the rooms.

       OTRA’s most recent review of the Fort Berthold Agency, conducted in November 2012,
was limited to the Agency’s trust records, but identified similar problems, including—

   •   six boxes of unlabeled records and loosely kept records;
   •   filing cabinets with unsorted and loose documents;
   •   an outdated file maintenance system; and
   •   inactive records held beyond the retention period.

        OTRA noted that the Fort Berthold Agency had the required plan identifying controls for
limiting access to rooms with trust records. Based on our observations, however, the plan was


                                                                                                2
not followed. An OTRA spokesperson stated that its reviews and assessments at BIA agency
offices were primarily focused on the condition of the trust records, but should encompass all
agency records. We concur that reviews encompassing both trust and non-trust records should be
performed. Chapter 2 of the IARMM has charged OST, BIA, and the Office of Trust Records
with responsibility and authority for the management of OST and Indian Affairs’ records
programs.

Uintah & Ouray Agency
         We identified no records management issues at the Uintah & Ouray Agency. Specifically,
the individual property records were sorted into folders with information divided into separate
file sections making it easy to access the information for the surface reviews of the individual
APDs selected for review. The files were stored in a high-density, mobile shelving system within
a controlled file room.

Recommendations

       We recommend that BIA complete the following:

           1.    Work with the Office of the Special Trustee for American Indians to expand the
                 scope of OTRA’s records management reviews to include all property records
                 maintained at BIA agencies.

           2.    Ensure that the recommendations contained in the 2009 report citing records
                 management deficiencies at the Southern Ute Agency are implemented.

           3.    Ensure that the Fort Berthold Agency complies with its management plan for
                 safeguarding trust records.

        Please provide us with your written response to this report within 30 days. The response
should provide information on actions taken or planned to address the recommendations, as well
as target dates and title(s) of the official(s) responsible for implementation. Please send your
response to me at:

                U.S. Department of the Interior
                Office of Inspector General
                12345 W. Alameda Parkway, Suite 300
                Lakewood, CO 80228

      The legislation creating the Office of Inspector General requires that we report to
Congress semiannually on all audit, inspection, and evaluation reports issued; actions taken to
implement our recommendations; and recommendations that have not been implemented.




                                                                                                  3
Scope and Methodology

        To conduct this inspection, we reviewed regulations and policies related to records
management, examined prior records management reviews conducted at BIA agencies,
interviewed cognizant officials, and visited three judgmentally sampled agencies. We did not use
any computer generated data for this inspection. We conducted our inspection in accordance with
the Quality Standards for Inspection and Evaluation issued by the Council of the Inspectors
General on Integrity and Efficiency. We believe that the work performed provides a reasonable
basis for our conclusions and recommendations.

       If you have any questions regarding this report, please contact me at 303-236-9107.




                                                                                              4
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doi.gov/oig/index.cfm

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
